APPENDIX

APPENDIX

TABLE OF CONTENTS
Appendix A:

Court of appeals opinion,
April 17, 2019 ................................................1a

Appendix B:

Railroad Retirement Board decision,
October 5, 2017 .............................................5a

Appendix C

Hearings officer decision,
Aug. 26, 2016.................................................9a

Appendix D:

Statutory provisions ..................................18a

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-60702
Summary Calendar
MANFREDO M. SALINAS,
Petitioner
v.
UNITED STATES RAILROAD RETIREMENT
BOARD,
Respondent
Petition for Review from an Order of the United States
Railroad Retirement Board Agency No. 16-AP-0038
Before HIGGINBOTHAM, ELROD, and DUNCAN,
Circuit Judges.
PER CURIAM: *
Petitioner Manfredo Salinas (“Salinas”) seeks review
of a decision by the United States Railroad Retirement
Board (“Board”) refusing to reopen the denial of his
previous application for a disability annuity under the
Railroad Retirement Act, 45 U.S.C. § 231 et seq. Under
our circuit precedent, we lack jurisdiction to review the
Board’s decision not to reopen Salinas’ prior case.
Pursuant to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5TH CIR. R. 47.5.4.

*

(1a)

2a
On February 28, 2006, Salinas applied for a disability
annuity under 45 U.S.C. § 231a(a)(1), which was denied by
the Board’s Disability Benefits Division on August 28,
2006. On November 30, 2006, Salinas untimely sought
reconsideration, which the Board’s Reconsideration
Section denied, concluding Salinas had not shown good
cause for the untimely filing. Salinas did not pursue
further administrative appeal, and the denial became a
final decision of the Board for reopening purposes on
February 9, 2007.
On December 26, 2013, Salinas filed a new application
for a disability annuity. The Board granted him an
annuity, but Salinas appealed the annuity’s beginning
date and amount. On February 15, 2015, during that
appeal, Salinas asked the Board to reopen all its decisions
on his prior applications, including the decision denying his
February 28, 2006 application. A Board hearing officer
conducted an oral hearing and concluded that Salinas’
2006 application was beyond the four-year timeframe for
reopening based on new and material evidence or
administrative error under the Board’s regulations. See 20
C.F.R. § 261.2. Salinas now petitions this court to review
the Board’s decision not to reopen his 2006
1
application. Under the Railroad Retirement Act and the
ailroad Unemployment Insurance Act, 45 U.S.C. § 355(f),
a petitioner may obtain review of certain final Board
decisions in federal circuit courts. “Under the plain
language of § 355(f), the jurisdiction of the federal courts
of appeals is limited to the review of Board decisions on the
merits of a claim for benefits after administrative appeals
Salinas fails to brief whether the Board erred in determining his
annuity’s beginning date and amount. He has therefore abandoned
any appeal of those issues. See Milligan v. Erath Cty., Tex., 95 F.3d
52 (5th Cir. 1996).

1

3a
have been exhausted.” Roberts v. R.R. Retirement Bd.,
346 F.3d 139, 140 (5th Cir. 2003). Salinas argues that the
Board’s decision not to reopen his 2006 application
qualifies as a final, reviewable decision under section
355(f). He acknowledges, however, that this argument is
precluded by our 2003 decision in Roberts v. U.S. Railroad
Retirement Board. In Roberts, we “joined several of our
sister circuits in determining that we have no jurisdiction
[under section 355(f)] to review the Board’s decision not to
reopen a prior claim for benefits.” Id. at 140; see also id.
at 141 (joining Harris v. R.R. Retirement Bd., 198 F.3d
139, 142 (4th Cir. 1999); Abbruzzese v. R.R. Retirement
Bd., 63 F.3d i972, 974 (10th Cir. 1995); Gutierrez v. R.R.
Retirement Bd., 918 F.2d 567, 570 (6th Cir. 1990); Steebe
v. R.R. Retirement Bd., 708 F.2d 250, 254–55 (7th Cir.
1983)). We acknowledged a circuit split on this issue. See
Roberts, 346 F.3d at 141 (recognizing divergent
conclusions in Sones v. R.R. Retirement Bd., 933 F.2d 636,
638 (8th Cir. 1991), and Szostak v. R.R. Retirement Bd.,
370 F.2d 253, 254–55 (2nd Cir. 1966)). But we sided with
the majority of circuits that had found no jurisdiction to
review a Board decision declining to reopen a prior
benefits claim. Roberts, 346 F.3d at 141 (“find[ing] the
reasoning of the Fourth, Sixth, Seventh and Tenth circuits
persuasive” in light of Califano v. Sanders, 430 U.S. 99, 97
S. Ct. 980, 51 L.Ed.2d 192 (1977)).
Despite Roberts, Salinas invites us to follow the D.C.
Circuit’s recent decision in Stovic v. Railroad Retirement
Board, 826 F.3d 500 (D.C. Cir. 2016). Stovic joined the
minority of circuits in holding that “the Railroad
Retirement Act grants the [circuit] Court jurisdiction to
review Board decisions denying requests to reopen initial
benefits determinations.” Id. at 502; see also id. at 504
(disagreeing with majority of circuits, including Roberts).
We are not at liberty to accept Salinas’ invitation to ignore

4a
Roberts, which established our circuit’s controlling
precedent on this issue. The rule of orderliness prevents
this panel from reconsidering that decision. See, e.g.,
Vaughan v. Anderson Reg’l Med. Ctr., 849 F.3d 588, 591
(5th Cir.), cert. denied, 138 S. Ct. 101, 199 L.Ed.2d 29
(2017).
The petition is DISMISSED.

5a
APPENDIX B
RAILROAD RETIREMENT BOARD
Appeal of October 5, 2017
Manfredo M. Salinas
R.R.B. No.
A-XXX-XX-9010

Claims Appeal Docket No.
16-AP-0338

The Board has reviewed the record in the appeal of Mr.
Manfredo M. Salinas from the August 26, 2016 decision of
the hearings officer and has considered the arguments
and evidence contained therein. Mr. Salinas appeals the
hearings officer’s decision denying an earlier protective
filing date for his current application for a total and
permanent disability annuity under section 2(a)(1)(v) of
the Railroad Retirement Act and denying reopening of
prior denied applications for total and permanent
disability under section 2(a)(1)(v) of the Act. The hearings
officer found Mr. Salinas was granted the earliest possible
annuity beginning date under law based on his December
26, 2013 application, and that previous application
decisions were beyond the four-year timeframe for
reopening based on new and material evidence or
administrative error, and no other criteria for reopening
applied. The Board affirms and adopts the decision of the
hearings officer with the following comments.
Mr. Salinas filed the current application for a disability
annuity under Section 2(a)(l)(v) of the Railroad
Retirement Act on December 26, 2013, alleging a
disability onset date of December 31, 2003 (Exhibit 44).

6a
The application was granted on July 17, 2014 with a
disability onset date of October 9, 2010, the date Mr.
Salinas attained age 55, and his annuity beginning date
was established as December 1, 2012, 12 months prior to
the month in which the current application was filed
(Exhibit 46). However, Mr. Salinas was denied a period
of disability under the Social Security Act and early
Medicare coverage because the date he was last insured
for Social Security disability benefits was December 31,
2002, which was before his established disability onset
date of October 9, 2010 (Exhibit 51). Mr. Salinas
requested reconsideration on September 17, 2014,
arguing that his annuity accrual amount was incorrect and
that he should have received annuity payments from his
disability onset date of October 9, 2010 (Exhibit 51-A).
The Railroad Retirement Board (RRB) Reconsideration
Section confirmed Mr. Salinas’ annuity beginning date
and the amount of his accrual payment in a letter dated
October 28, 20l4 (Exhibit 52). Mr. Salinas filed an appeal
to the Bureau of Hearings and Appeals with a postmark
of December 24, 2014, but used an incorrect form (Exhibit
53). The Bureau of Hearings and Appeals responded with
a letter dated January 15, 2015, giving Mr. Salinas 30 days
from the date of the letter to file a timely appeal on the
correct form (Exhibit 54). Mr. Salinas then filed a timely
appeal to the Bureau of Hearings and Appeals on
February 15, 2015 (Exhibit 55).
In a letter dated May 8, 2015, the hearings officer notified
Mr. Salinas that the issue on appeal was solely a question
of law and no hearing would be held in accordance with
RRB regulation 260.5(h) (Exhibit 63). Mr. Salinas’
representative, Weldon Reeves, responded on May 12,
2015 that he would submit additional medical records
from the Department of Veterans Affairs, and argued that

7a
factual disputes existed surrounding an earlier
application filed by Mr. Salinas which was final on August
28, 2006. Mr. Salinas’ requested the 2006 decision be
reopened and that a hearing should be held on his instant
appeal (Exhibit 64). Mr. Salinas’ request for a hearing
was granted on October 9, 2015 (Exhibit 70).
The hearings officer held a hearing via videoconference on
November 13, 2015 with Mr. Salinas and his
representative Mr. Reeves appearing from Corpus
Christi, Texas. On August 26, 2016, the hearings officer
issued a decision finding that Mr. Salinas had been
granted the earliest annuity beginning date permitted by
law based on his December 26, 2013 application. The
hearings officer also found that the request to reopen the
RRB’s final decision of August 28, 2006 was not within the
four year timeframe for reopening a decision under RRB
regulation 261.2(b), and none of the conditions were met
for reopening a decision at any time under RRB
regulation 261.2(c). This timely appeal to the Board
followed on September 9, 2016.
The Board has reviewed the administrative record and
the hearings officer’s decision. The Board finds that the
hearings officer correctly cited the relevant law and
regulations (pages 6 through 9 of the August 26, 2016
decision), and thoroughly and accurately analyzed the
evidence of record (pages 2 through 5 of the August 26,
2016 decision).
On appeal to the Board, Mr. Salinas argues only that the
hearings officer’s decision did not correctly apply the law
to the facts regarding the reopening of the August 28,
2006 decision. The Board has reviewed the hearings
officer's decision and agrees that the hearings officer

8a
correctly concluded the August 28, 2006 decision was not
subject to reopening under RRB regulation 261.2, and
that Mr. Salinas was granted the earliest possible annuity
beginning date under law based on the December 26, 2013
application. The Board places particular importance on
Exhibit 33-A, Mr. Salinas’ untimely request for
reconsideration of the August 28, 2006 decision, as this
document indicates that Mr. Salinas received the August
28, 2006 denial letter (Exhibit 33) and that Mr. Salinas’
arguments before the hearings officer in this appeal that
he was unable to understand his appeal rights in 2006 due
to limited English proficiency and mental impairments
were presented to the RRB in 2006.
The RRB
Reconsideration Section considered these arguments at
the time and determined that Mr. Salinas had not shown
good cause for filing an untimely request for
reconsideration on December 11, 2006 (Exhibit 33-B).
Mr. Salinas did not file any further appeal of the
December 11, 2006 decision, despite demonstrating an
ability to file a late appeal of the August 28, 2006 decision
less than fourteen days prior and being informed of his
right to request reconsideration of the December 11, 2006
determination (Exhibit 33-B).
Accordingly, because the findings of the hearings officer
are well-supported by the evidence in the record and the
hearings officer properly applied the relevant provisions
of the Railroad Retirement Act and RRB regulations, the
Board affirms and adopts the decision of the hearings
officer as explained above. The appeal is denied.
___________________
Walter A. Barrows
___________________
Steven J. Anthony

9a
APPENDIX C
DECISION OF THE HEARINGS OFFICER
Mr. Manfredo M. Salinas
3207 Clark Boulevard
Laredo, Texas 78043
AUG 26 2016

Decision No. 16-231
Appeal No. 15-0146
RRB-PSN-AI3800F

The hearings officer finds that the appellant’s annuity
beginning date is correct. In addition, Board regulations
do no not allow for priors [sic] decision to be reopened.
The following is an explanation of this decision.
PROCEDURAL HISTORY
The appellant filed an application for a total and
permanent disability annuity under section 2(a)(1)(v) of
the Railroad Retirement Act on December 16, 2013
(Exhibit 42). The Railroad Retirement Board
(Board/Agency) determined that the appellant [sic] for all
regular work effective October 9, 2010, at age 55, and his
annuity beginning date (ABD) was established as
December 1, 2012, 12 months prior to the month in which
the application was filed (Exhibit 46). The Board denied
the period of disability and early Medicare coverage
because the appellant did not have an insured status with
the Social Security Administration (SSA) on his
established disability onset date (Exhibit 51). The
appellant requested reconsideration of his ABD and
accrual amount. The Agency confirmed that the ABD and
accrual amount paid were correct (Exhibit 52). The
appellant filed a timely appeal and his representative, Mr.
Weldon Ray Reeves, requested that all prior applications
be reopened and requested a protective filing date prior

11a
to the application on appeal (Exhibit 55).
The hearings officer advised Mr. Reeves the issue on
appeal involved solely a question on the application or
interpretation of the law and therefore, no hearing would
be held, according to Board regulation 260.5(h). The
hearings officer sent the draft index of the Administrative
Record and copies of the listed exhibits to Mr. Reeves and
he was given 45 days to review the file (Exhibit 63). The
representative replied and raised a number of issues of
fact that he felt needed to be resolved and requested
additional information (Exhibit 64). The hearings officer
sent the additional information requested that was
germane to the appeal. Exhibits one through 72 were
admitted into the record as evidence. And the appellant
provided sworn testimony.. Exhibits 33-A, 33-B, 46-A, 47B, 47, 51-A and 53-A were included in the Administrative
Record after the hearing and copies were sent to Mr.
Reeves. The record is closed.
ISSUES
The general issue in this appeal is whether the prior
decisions may be reopened based on the agency’s
regulations. The specific issue is whether the appellant’s
annuity beginning date and accrual amount paid to him in
August 2014 are correct.
EVIDENCE CONSIDERED
The hearings officer has considered the evidence listed in
the Index of the Administrative Record attached to this
decision and testimony received at the hearing.
SUMMARY AND EVALUATION OF EVIDENCE
The appellant filed for an application for a total and
permanent disability annuity under the provisions of the

12a
Railroad Retirement Act on March 3, 1992, alleging
disability due to cervical degenerative disc disease
(Exhibits 1 and 2). The spouse of the appellant advised the
Agency that he returned to work (Exhibit 5) and the
application was denied on June 3, 1993 because it was
determined that he was not disabled for all regular work
(Exhibits 7 and 8). The appellant did not request
reconsideration of the decision. A second disability
application was filed on April 20, 1994 and the appellant
claimed he was unable to work due to a neck and shoulder
injury, herniated disc at C7, numbness in his arms and
legs, and severe pain in the neck and shoulders. The
appellant further mentioned previous reconstruction
surgery at C5 (Exhibits 13 and 14). The application was
denied because the Agency again determined that the
appellant was not totally and permanently disabled
(Exhibits 17 and 18). The Board did not receive a
reconsideration request.
The appellant filed an application for disability on
February 28, 2006, alleging that he was disabled due to an
on-the-job injury to the head, shoulder, back, and leg;
cervical herniation and fusion; depression; neck and lower
back pain; and numbness in both arms and hands
(Exhibits 27 and 28). The Board concluded that the
appellant was not disabled for all regular work (Exhibits
32 and 33). In a letter dated November 30, 2006 the
appellant requested reconsideration of the decision
(Exhibit 33-A). The Agency denied the request because it
was received more than 60 days after the August 28, 2006
denial notice and determined that the appellant failed to
show good cause for failure to filing [sic] a late request for
reconsideration (Exhibit 33-B). The appellant did not
appeal the decision.
The appellant’s representative raised the issue regarding

13a
reopening the decision at Exhibit 33 and questioned
whether the appellant received the August 28, 2006 denial
notice (Exhibit 64). In accordance with § 260.1 (d) of the
Agency’s regulations, the denial notice dated February
28, 2006 was mailed to the appellant’s last known address
and there is no indication in the file that the notice was
returned as undeliverable. The appellant indicated during
the hearing that he received the denial notice but did not
understand it. The appellant testified that he did not
contact the Railroad Retirement Board because he felt
like that was the end (see transcript, page 19). It appears
that the appellant did not remember filing a late request
for reconsideration.
Mr. Reeves indicated in his pre-hearing brief that the
August 28, 2006 denial decision should be reopened
because the appellant lacked the mental capacity to
understand the procedures for requesting review, citing a
language barrier, depression, anxiety and agoraphobia
(Exhibit 72). Mr. Reeves also referenced Shrader v.
Harris F.2d 297 (4th Cir. 1080) [sic] and LabateWatterson v. Colvin, Civil Action No. 12-1110 (Exhibit 72).
The appellant testified that he sometimes has difficulty
reading or writing the English language . . . in dealing
with long words. He stated, “I mean, sometimes I don’t
understand them. Just the basic ones I can understand,
but some . . . the long words I can’t. Like you know, some
other educational words” (see transcript, p 5). The
appellant also testified that he was able to communicate
with Dr. Hare in English, “a little bit, if (the doctor) would
talk to him in simple words, he would (communicate in
the English language).” The appellant stated that he did
not communicate with Dr. Hare in Spanish (see
transcript, p 12).
The representative contends that a reopening of the prior

14a
decision is warranted based on case law. Board regulation
§261.1(c) provides that reopening a final decision under
this part means a conscious determination on the part of
the Agency to reconsider an otherwise final decision for
purposes of revising that decision. The hearings officer
has reviewed the regulations for reopening under section
261.2 and finds that the final decision dated February 28,
2006 may not be reopened. Administrative finality was
applied to the decision more than four years ago,
therefore, new and material evidence or administrative
error cannot be considered. In addition, the
representative’s reasons for reopening do not fall into any
category outlined in §261.2(c) of the Agency’s regulations.
The appellant filed an application for a total and
permanent disability annuity on December 16, 2013
(Exhibits 1 and 2), alleging disability due to a job injury,
cervical disc herniation and fusion, neck and lower back
pain, numbness in both arms and hands, and depression.
The Board determined that the appellant was disabled for
all regular work beginning October 9, 2010 (the day before
the day he attained age 55). The Board also determined
that his ABD is December 1, 2012, the first day of the
twelfth month prior to the application filing date of
December 16, 2013. The appellant submitted [sic]
reconsideration request (Exhibit 51-A) indicating that he
disagreed with the calculated accrual amount and
referenced the disability allowance notice (Exhibit 46).
The same letter was resubmitted on appeal (Exhibit 53).
The appelant [sic] indicated that his appeal is that the
Board still owes him 25 months of annuity (presumably
November 2010 through November 2012).
Although the appellant’s established disability onset date
is October 9, 2010, the date that his annuity begins cannot,
by law, be the same date. Board regulation § 218.9 states

15a
that his annuity beginning date (ABD) is to [sic] the later
of the following:
(1) The day after the day the claimant last worked for
a railroad employer;
(2) The first day of the twelfth month before the
month in which the application is filed;
(3) The first day of the sixth month after the month of
disability onset; or
(4) The first day of the month of disability onset if the
claimant was previously entitled to an employee
disability annuity, which ended within five years of
the current disability onset month.
The hearings officer has considered the aforementioned
criteria and the following dates apply to situations one
through three. The appellant was not previously entitled
to a disability annuity and therefore, situation number
four does not apply.
•
•
•

The appellant last worked for the railroad
November 15, 1995, according to Form AA-1d filed
December 16, 2013.
The first day of the twelfth month before the
month he filed the application (December 2013) is
December 1, 2012.
The first day of the sixth month after the month of
disability onset (October 9, 2010) is April 1, 2011.

The later of the above dates is December 1, 2012, and is
the earliest date permitted by law. The hearings officer
finds that the appellant’s ABD of December 1, 2012 and
the accrual paid in August 2014 are correct.

16a
FINDINGS
After a careful consideration of the entire record, the
hearings officer makes the following findings:
1. The appellant has at least 120 months of creditable
railroad service and a current connection.
2. The appellant has not engaged in any substantial
gainful employment since November 15, 1995.
3. The appellant filed for a total and permanent
disability annuity on February 28, 2006.
4. The February 28, 2006 application was denied on
August 28, 2006 because the Agency determined
that the appellant was not disabled for all regular
work.
5. The Appellant’s request for reconsideration was
received December 6, 2006.
6. The Board denied the reconsideration request
because it was not timely filed.
7. Administrative finality is applied to the August 28,
2006 decision.
8. The August 28, 2006 decision may not be reopened
under § 261.2 of the Agency’s regulations.
9. The application on appeal was filed December 16,
2013.
10. The Board determined that the appellant is
disabled for all regular work beginning October 9,
2010, the day before the day he attained age 55.
11. The appellant’s annuity beginning date is
December 1, 2012, the first day of the twelfth
month before the month the application was filed.

17a
12. The December 1, 2012 annuity beginning date is
the earliest date permitted by law.
13. The accrual paid based on the annuity beginning
date of December 1, 2012 is correct.
DECISION
The denial decision dated August 28, 2006 may not be
reopened. The appellant’s annuity beginning date of
December 1, 2012 and accrual paid to the appellant in
August 2014 are correct.
The appeal is denied.
Janet W. Coleman
Hearings Officer

18a
APPENDIX D
1.

45 U.S.C. §231f provides:
(a) Administration

This subchapter shall be administered by the Railroad
Retirement Board established by the Railroad
Retirement Act of 1937 [45 U.S.C. 228a et seq.] as an
independent agency in the executive branch of the
Government and composed of three members appointed
by the President, by and with the advice and consent of
the Senate. Each member shall hold office for a term of
five years, except that any member appointed to fill a
vacancy occurring prior to the expiration of the term for
which his predecessor was appointed shall be appointed
for the remainder of the term and any member holding
office pursuant to appointment under the Railroad
Retirement Act of 1937 when this subchapter becomes
effective shall hold office until the term for which he was
appointed under such Railroad Retirement Act of 1937
expires. One member shall be appointed from
recommendations made by representatives of the
employees and one member shall be appointed from
recommendations made by representatives of employers
as defined in paragraph (i) of section 231(a)(1) of this title,
in both cases as the President shall direct, so as to provide
representation on the Board satisfactory to the largest
number, respectively, of employees and employers
concerned. One member, who shall be the chairman of the
Board, shall be appointed without recommendation by
either employers or employees and shall not be in the
employment of or be pecuniarily or otherwise interested
in any employer or organization of employees. Vacancies
in the Board shall not impair the powers or affect the
duties of the Board or of the remaining members of the
Board, of whom a majority of those in office shall

19a
constitute a quorum for the transaction of business. Upon
the expiration of his term of office a member shall
continue to serve until his successor is appointed and shall
have qualified.
(b) Powers and duties
(1) The Board shall have and exercise all the duties
and powers necessary to administer this subchapter. The
Board shall take such steps as may be necessary to
enforce such subchapter and make awards and certify
payments. Decisions by the Board upon issues of law and
fact relating to annuities or death benefits shall not be
subject to review by any other administrative or
accounting officer, agent, or employee of the United
States.
(2) In the case of—
(A) an individual who will have completed ten
years of service (or five or more years of service,
all of which accrues after December 31, 1995)
creditable under this subchapter,
(B) the wife or divorced wife or husband of
such an individual,
(C) any survivor of such an individual if such
survivor is entitled, or could upon application
become entitled, to an annuity under section 231a
of this title, and
(D) any other person entitled to benefits under
title II of the Social Security Act [42 U.S.C. 401 et
seq.] on the basis of the wages and selfemployment income of such an individual (except a
survivor of such an individual where such
individual did not have a current connection with
the railroad industry at the time of his death);

20a

the Board shall provide for the payment on behalf of
the Managing Trustee of the Federal Old-Age and
Survivors Insurance Trust Fund and the Federal
Disability Insurance Trust Fund of monthly benefits
payable under title II of the Social Security Act [42 U.S.C.
401 et seq.] which are certified by the Secretary to it for
payment under the provisions of title II of the Social
Security Act.
(3) If the Board finds that an applicant is entitled to
an annuity or death benefit under the provisions of this
subchapter then the Board shall make an award fixing the
amount of the annuity or benefit, as the case may be, and
shall certify the payment thereof as hereinafter provided;
otherwise the application shall be denied. For purposes of
this section, the Board shall have and exercise such of the
powers, duties and remedies provided in subsections (a),
(b), (d), and (n) of section 12 of the Railroad
Unemployment Insurance Act [45 U.S.C. 362] as are not
inconsistent with the express provisions of this
subchapter. The Board is authorized to delegate to any
member, officer, or employee of the Board any of the
powers conferred upon the Board by this subchapter,
excluding only the power to prescribe rules and
regulations, including the power to make decisions on
applications for annuities or other benefits: Provided,
however, That any person aggrieved by a decision on his
application for an annuity or other benefit shall have the
right to appeal to the Board. Notice of a decision of the
Board, or of an employee thereof, shall be communicated
to the applicant in writing within thirty days after such
decision shall have been made.

21a
(4)(A) The Secretary of the Treasury shall serve as
the disbursing agent for benefits payable under this
subchapter, under such rules and regulations as the
Secretary may in the Secretary’s discretion prescribe.
(B) The Board shall from time to time certify—
(i) to the Secretary of the Treasury the
amounts required to be transferred from the Social
Security Equivalent Benefit Account and the Dual
Benefits Payments Account to the disbursing
agent to make payments of benefits and the
Secretary of the Treasury shall transfer those
amounts;
(ii) to the Board of Trustees of the National
Railroad Retirement Investment Trust the
amounts required to be transferred from the
National Railroad Retirement Investment Trust to
the disbursing agent to make payments of benefits
and the Board of Trustees shall transfer those
amounts; and
(iii) to the disbursing agent the name and
address of each individual entitled to receive a
payment, the amount of such payment, and the
time at which the payment should be made.
(5) The Board shall establish and promulgate rules
and regulations to provide for the adjustment of all
controversial matters arising in the administration of this
subchapter. All rules, regulations, or decisions of the
Board shall require the approval of at least two members,
and they shall be entered upon the records of the Board,
which shall be a public record.
(6) The Board shall gather, keep, compile, and publish
in convenient form such records and data as may be

22a
necessary to assure proper administration of this
subchapter, including subdivision (2) of this subsection.
The Board shall have power to require all employers and
employees and any officer, board, commission, or other
agency of the United States to furnish such information
and records as shall be necessary for the administration
of this subchapter, including subdivision (2) of this
subsection. The several district courts of the United
States shall have jurisdiction upon suit by the Board to
compel obedience to any order of the Board issued
pursuant to this section. The orders, writs, and processes
of the United States District Court for the District of
Columbia in such suits may run and be served anywhere
in the United States. Witnesses summoned before the
Board shall be paid the same fees and mileage that are
paid witnesses in the district courts of the United States.
The Board shall make an annual report to the President
of the United States to be submitted to Congress.
(7) Notwithstanding any other provision of law, the
Secretary of Health and Human Services shall furnish the
Board certified reports of wages, self-employment
income, and periods of service and of other records in his
possession, or which he may secure, pertinent to the
administration of this subchapter, the Railroad
Unemployment Insurance Act [45 U.S.C. 351 et seq.],,1
the Milwaukee Railroad Restructuring Act [45 U.S.C. 901
et seq.], and the Rock Island Railroad Transition and
Employee Assistance Act [45 U.S.C. 1001 et seq.]..1 The
Board shall furnish the Secretary of Health and Human
Services certified reports of records of compensation and
periods of service reported to it pursuant to section 231h
of this title, of determinations under section 231a of this
title, and of other records in its possession, or which it may
secure, pertinent to subsection (c) of this section or to the
administration of the Social Security Act [42 U.S.C. 301 et

23a
seq.] as affected by section 231q of this title. Such certified
reports shall be conclusive in adjudication as to the
matters covered therein: Provided, however, That if the
Board or the Secretary of Health and Human Services
receives evidence inconsistent with a certified report and
the application involved is still in course of adjudication or
otherwise open for such evidence such recertification of
such report shall be made as, in the judgment of the Board
or the Secretary of Health and Human Services,
whichever made the original certification, the evidence
warrants. Such recertification and any subsequent
recertification shall be treated in the same manner and be
subject to the same conditions as an original certification.
(8) Any department or agency of the United States
maintaining records of military service, at the request of
the Board, shall certify to the Board, with respect to any
individual, the number of months of military service which
such department or agency finds the individual to have
had during any period or periods with respect to which the
Board’s request is made, the date and manner of entry
into such military service, and the conditions under which
such service was continued. Any department or agency of
the United States which is authorized to make awards of
pensions, disability compensation, or any other gratuitous
benefits or allowances payable, on the periodic basis or
otherwise, under any other Act of Congress on the basis
of military service, at the request of the Board, shall
certify to the Board, with respect to any individual, the
calendar months for all or part of which any such pension,
compensation, benefit, or allowance is payable to, or with
respect to, the individual, the amounts of any such
pension, compensation, benefit, or allowance, and the
military service on which such pension, compensation,
benefit, or allowance is based. Any certification made
pursuant to the provisions of this subdivision shall be

24a
conclusive on the Board: Provided, however, That if
evidence inconsistent with any such certification is
submitted, and the claim is in the course of adjudication
or is otherwise open for such evidence, the Board shall
refer such evidence to the department or agency which
made the original certification and such department or
agency shall make such recertification as in its judgment
the evidence warrants. Such recertification, and any
subsequent recertification, shall be conclusive, made in
the same manner, and subject to the same conditions as
an original certification.
(9) The Board shall maintain such offices, provide
such equipment, furnishings, supplies, services, and
facilities, and employ such individuals and provide for
their compensation and expenses as may be necessary for
the proper discharge of its functions. All positions to
which such individuals are appointed, except one
administrative assistant to each member of the Board,
shall be in and under the competitive civil service and shall
not be removed or excepted therefrom. In the
employment of such individuals under the civil service
laws and rules the Board shall give preference over all
others to individuals who have had experience in railroad
service, if, in the judgment of the Board, they possess the
qualifications necessary for the proper discharge of the
duties of the positions to which they are to be appointed.
For purposes of its administration of this subchapter or
the Railroad Unemployment Insurance Act [45 U.S.C. 351
et seq.], or both, the Board may place, without regard to
the numerical limitations contained in section 5108(c)(9) 2
of title 5, four positions in grade GS–16 of the General
Schedule established by that Act, four positions in grade
GS–17 of such schedule, and one position in grade GS–18
of such schedule.

25a
(c) Sources of payments; adjustments
(1) Benefit payments determined by the Board to be
payable under this subchapter shall be made by the
disbursing agent under subsection (b)(4) of this section
from money transferred to it from the National Railroad
Retirement Investment Trust or the Social Security
Equivalent Benefit Account, as the case may be, except
that payments of annuity amounts made under sections
231b(h), 231c(e), and 231c(h) of this title and under
sections 204(a)(3), 204(a)(4), 206(3), and 207(3) of Public
Law 93–445 shall be made by the disbursing agent under
subsection (b)(4) of this section from money transferred
to it from the Dual Benefits Payments Account. In any
fiscal year, the total amounts paid under such sections
shall not exceed the total sums appropriated to the Dual
Benefits Payments Account for that fiscal year. The
Board shall prescribe regulations for allocation of annuity
amounts which would without regard to such regulations
be payable under sections 231b(h), 231c(e), and 231c(h) of
this title and sections 204(a)(3), 204(a)(4), 206(3), and
207(3) of Public Law 93–445 so that the sums appropriated
to the Dual Benefits Payments Account for a fiscal year
so far as practicable, are expended in equal monthly
installments throughout such fiscal year, and are
distributed so that recipients are paid annuity amounts
which bear the same ratio to the annuity amounts such
recipients would have received but for such regulations as
the ratio of the total sums appropriated to pay such
annuity amounts bear to the total sums necessary to pay
such annuity amounts without regard to such regulations.
Notwithstanding any other provision of law, the
entitlement of an individual to an annuity amount under
section 231b(h), 231c(e), or 231c(h) of this title or section
204(a)(3), 204(a)(4), 206(3), or 207(3) of Public Law 93–445
for any month in which the amount payable to such

26a
individual is allocated under the regulations prescribed by
the Board under this subsection shall not exceed the
amount so allocated for that month to such individual.
(2) At the close of the fiscal year ending June 30, 1975,
and each fiscal year thereafter, the Board and the
Secretary of Health and Human Services shall determine
the amounts, if any, which if added to or subtracted from
the Federal Old-Age and Survivors Insurance Trust
Fund, the Federal Disability Insurance Trust Fund, and
the Federal Hospital Insurance Trust Fund would place
each such Trust Fund in the same position in which it
would have been if (A) service as an employee after
December 31, 1936, had been included in the term
“employment” as defined in the Social Security Act [42
U.S.C. 301 et seq.] and in the Federal Insurance
Contributions Act [26 U.S.C. 3101 et seq.] and (B) this
subchapter had not been enacted. Such determination
with respect to each such Trust Fund shall be made no
later than June 15 following the close of the fiscal year. If,
pursuant to any such determination, any amount is to be
added to any such Trust Fund, the Board shall, within ten
days after the determination, certify such amount to the
Secretary of the Treasury for transfer from the Railroad
Retirement Account to such Trust Fund. If, pursuant to
any such determination, any amount is to be subtracted
from any such Trust Fund, the Secretary of Health and
Human Services shall, within ten days after the
determination, certify such amount to the Secretary of the
Treasury for transfer from such Trust Fund to the
Railroad Retirement Account. Any amounts so certified
shall further include interest (at the rate determined in
subdivision (3) for the fiscal year under consideration)
payable from the close of such fiscal year until the date of
certification. The Secretary of the Treasury is authorized
and directed to transfer to the Railroad Retirement

27a
Account from the Federal Old-Age and Survivors
Insurance Trust Fund, the Federal Disability Insurance
Trust Fund, or the Federal Hospital Insurance Trust
Fund or to any such Trust Fund from the Railroad
Retirement Account, as the case may be, such amounts as,
from time to time, may be determined by the Board and
the Secretary of Health and Human Services pursuant to
the provisions of this subdivision and certified by the
Board or the Secretary of Health and Human Services for
transfer from any such Trust Fund or from the Railroad
Retirement Account.
(3) For purposes of subdivision (2), for any fiscal year,
the rate of interest to be used shall be equal to the average
rate of interest, computed as of May 31 preceding the
close of such fiscal year, borne by all interest-bearing
obligations of the United States then forming a part of the
public debt; except that where such average rate is not a
multiple of one-eighth of 1 per centum, the rate of interest
shall be the multiple of one-eighth of 1 per centum next
lower than such average rate.
(4) After the end of each month beginning with the
month of October 1983, the Board shall determine the net
amount, if any, which if added to or subtracted from the
Federal Old-Age and Survivors Insurance Trust Fund,
the Federal Disability Insurance Trust Fund, and the
Federal Hospital Insurance Trust Fund would, with
respect to such month, place those Trust Funds, taken as
a whole, in the same position in which they would have
been if (A) service as an employee after December 31,
1936, had been included in the term “employment” as
defined in the Social Security Act [42 U.S.C. 301 et seq.]
and in the Federal Insurance Contributions Act [26
U.S.C. 3101 et seq.], and (B) this subchapter had not been
enacted. If for any month the net amount so determined

28a
would be subtracted from those Trust Funds, the Board
shall, within ten days after the end of such month, report
such amount to the Secretary of the Treasury for transfer
from the general fund to the Railroad Retirement
Account. Any amount so reported shall further include
interest (at an annual rate equal to the rate of interest
borne by a special obligation issued to the Railroad
Retirement Account in the month in which the transfer is
made to the Account) payable from the close of the month
for which the transfer is made until the date of transfer.
The Secretary of the Treasury is authorized and directed
to transfer to the Railroad Retirement Account from the
general fund such amounts as, from time to time, may be
determined by the Board pursuant to the provisions of
this subdivision and reported by the Board for transfer.
For such purpose the Secretary of the Treasury is
authorized to use as a public debt transaction the
proceeds of the sale of any securities issued after August
12, 1983, under section 3102 of title 31, and the purpose
for which securities may be issued under section 3102 of
title 31 are extended to include such purpose. Each such
transfer shall be made by the Secretary of the Treasury
within five days after a report of the amount to be
transferred is received. Not later than December 31
following the close of each fiscal year beginning with the
fiscal year ending September 30, 1984, the Board shall
certify to the Secretary of the Treasury the total of all
amounts transferred pursuant to the provisions of this
subdivision for months in such fiscal year. Within ten days
after a transfer, or transfers, pursuant to subdivision (2)
for a particular fiscal year, the Board shall request the
Secretary of the Treasury to retransfer from the Railroad
Retirement Account to the general fund an amount equal
to (A) the total of all amounts, exclusive of interest,
transferred to such Account pursuant to the provisions of

29a
this subdivision for months in such fiscal year, plus (B)
interest (at the rate determined in subdivision (3) for such
fiscal year) payable with respect to each amount
transferred for a month during such fiscal year from the
close of the month for which the transfer of the amount
was made until the date of retransfer of such amount. The
Secretary of the Treasury is authorized and directed to
retransfer from the Railroad Retirement Account to the
general fund such amounts as, from time to time, may be
determined by the Board pursuant to the provisions of the
preceding sentence of this subdivision and reported by the
Board for retransfer.
(d) Hospital
insurance
benefits;
certified
beneficiaries; disability insurance benefits; services in
Canada; exchange of information
(1) The Board shall, for purposes of this subsection,
have the same authority to determine the rights of
individuals described in subdivision (2) to have payments
made on their behalf for hospital insurance benefits
consisting of inpatient hospital services, posthospital
extended care services, home health services, hospice
care, and outpatient hospital diagnostic services (all
hereinafter referred to as “services”) under section 226
[42 U.S.C. 426], and parts A and E of title XVIII [42
U.S.C. 1395c et seq., 1395x et seq.], of the Social Security
Act as the Secretary of Health and Human Services has
under such section and such parts with respect to
individuals to whom such sections and such parts apply.
For purposes of section 231g of this title, a determination
with respect to the rights of an individual under this
subsection shall, except in the case of a provider of
services, be considered to be a decision with respect to an
annuity.

30a
(2) Except as otherwise provided in this subsection,
every person who—
(i) has attained age 65 and (A) is entitled to
an annuity under this subchapter or (B) would be
entitled to such an annuity had he ceased
compensated service and, in the case of a spouse or
divorced wife, had such spouse’s husband or wife
ceased compensated service or (C) bears a
relationship to an employee which, by reason of
section 231b(f)(2) of this title, has been, or would
be, taken into account in calculating the amount of
the annuity of such employee; or
(ii) has not attained age 65 and (A) has been
entitled to an annuity under section 231a of this
title, or under the Railroad Retirement Act of 1937
[45 U.S.C. 228a et seq.] and section 231a of this
title, or could have been includible in the
computation of an annuity under section 231b(f)(2)
of this title, for not less than 24 months and (B)
could have been entitled for 24 calendar months,
and could currently be entitled, to monthly
insurance benefits under section 223 of the Social
Security Act [42 U.S.C. 423] or under section 202
of that Act [42 U.S.C. 402] on the basis of disability
if service as an employee after December 31, 1936,
had been included in the term “employment” as
defined in that Act and if an application for
disability benefits had been filed,
shall be certified to the Secretary of Health and
Human Services as a qualified railroad retirement
beneficiary under section 226 of the Social Security Act
[42 U.S.C. 426].

31a
(3) If an individual entitled to an annuity under
paragraph (iv) or (v) of section 231a(a)(1) of this title
would have been insured for disability insurance benefits
as determined under section 223(c)(1) of the Social
Security Act [42 U.S.C. 423(c)(1)] at the time such annuity
began, he shall be deemed, solely for purposes of
paragraph (ii) of subdivision (2), to be entitled to a
disability insurance benefit under section 223 of the Social
Security Act for each month, and beginning with the first
month, in which he would meet the requirements for
entitlement to such a benefit, other than the requirement
of being insured for disability insurance benefits, if
service as an employee after December 31, 1936, had been
included in the term “employment” as defined in the
Social Security Act [42 U.S.C. 301 et seq.] and if an
application for disability benefits had been filed.
(4) The rights of individuals described in subdivision
(2) of this subsection to have payment made on their
behalf for the services referred to in subdivision (1) but
provided in Canada shall be the same as those of
individuals to whom section 226 [42 U.S.C. 426] and part
A of title XVIII [42 U.S.C. 1395c et seq.] of the Social
Security Act apply, and this subdivision shall be
administered by the Board as if the provisions of section
226 and part A of title XVIII of the Social Security Act
were applicable, as if references to the Secretary of
Health and Human Services were to the Board, as if
references to the Federal Hospital Insurance Trust Fund
were to the Railroad Retirement Account, as if references
to the United States or a State included Canada or a
subdivision thereof, and as if the provisions of sections
1862(a)(4), 1863, 1864, 1868, 1869, 1874(b), and 1875 [42
U.S.C. 1395y(a)(4), 1395z, 1395aa, 1395ee, 1395ff,
1395kk(b), 1395ll] were not included in such title. The
payments for services herein provided for in Canada shall

32a
be made from the Railroad Retirement Account (in
accordance with, and subject to, the conditions applicable
under subsection (b) of this section, in making payment of
other benefits) to the hospital, extended care facility, or
home health agency providing such services in Canada to
individuals to whom subdivision (2) of this subsection
applies, but only to the extent that the amount of
payments for services otherwise hereunder provided for
an individual exceeds the amount payable for like services
provided pursuant to the law in effect in the place in
Canada where such services are furnished. For the
purposes of section 231i of this title, any overpayment
under this subdivision shall be treated as if it were an
overpayment of an annuity.
(5) The Board and the Secretary of Health and Human
Services shall furnish each other with such information,
records, and documents as may be considered necessary
to the administration of this subsection or section 226 [42
U.S.C. 426], and part A of title XVIII [42 U.S.C. 1395c et
seq.], of the Social Security Act.
(e) Acceptance of gifts and bequests
The Board is authorized to accept on behalf of the
United States money gifts and bequests made
unconditionally to the Railroad Retirement Account, to
the Railroad Retirement Supplemental Account, or to the
Railroad Unemployment Insurance Account, or to the
Board, or any member, officer, or employee thereof, for
the benefit of such accounts or any activity financed
through such accounts. Any such gift accepted pursuant
to the authority granted in this subsection shall be
deposited in the specific account designated by the donor
or, if the donor has made no such specific designation, in
the Railroad Retirement Account.

33a
(f) Congressional copies of documents submitted
or transmitted to President or Office of Management
and Budget
Whenever the Board submits or transmits any budget
estimate, budget request, supplemental budget estimate,
or other budget information, legislative recommendation,
prepared testimony for congressional hearings, or
comment on legislation to the President or to the Office of
Management and Budget, it shall concurrently transmit a
copy thereof to the Congress. No officer or agency of the
United States shall have any authority to require the
Board to submit its budget requests or estimates,
legislative recommendations, prepared testimony for
congressional hearings, or comments on legislation to any
officer or agency of the United States for approval,
comments, or review, prior to the submission of such
recommendations, testimony, or comments to the
Congress.
2.

45 U.S.C. § 231g provides:

Decisions of the Board determining the rights or
liabilities of any person under this subchapter shall be
subject to judicial review in the same manner, subject to
the same limitations, and all provisions of law shall apply
in the same manner as though the decision were a
determination of corresponding rights or liabilities under
the Railroad Unemployment Insurance Act [45 U.S.C. 351
et seq.] except that the time within which proceedings for
the review of a decision with respect to an annuity,
supplemental annuity, or lump-sum benefit may be
commenced shall be one year after the decision will have
been entered upon the records of the Board and
communicated to the claimant.

34a

3.

45 U.S.C. § 355 provides:
(a) Publication of Board’s regulations

Claims for benefits and appeals from determinations
with respect thereto shall be made in accordance with
such regulations as the Board shall prescribe. Each
employer shall post and maintain, in places readily
accessible to employees in his service, such printed
statements concerning such regulations as the Board
supplies to him for such purpose, and shall keep available
to his employees copies of such printed statements. Such
printed statements shall be supplied by the Board to each
employer without cost to him.
(b)
Board

Findings, hearings, investigations, etc., by

The Board is authorized and directed to make findings
of fact with respect to any claim for benefits and to make
decisions as to the right of any claimant to benefits. The
Board is further authorized to hold such hearings, to
conduct such investigations and other proceedings, and to
establish, by regulations or otherwise, such procedures as
it may deem necessary or proper for the determination of
a right to benefits. When a claim for benefits is filed with
the Board, the Board shall provide notice of such claim to
the claimant’s base-year employer or employers and
afford such employer or employers an opportunity to
submit information relevant to the claim before making
an initial determination on the claim. When the Board
initially determines to pay benefits to a claimant under
this chapter, the Board shall provide notice of such
determination to the claimant’s base-year employer or
employers.

35a
(c) Hearing and review of decisions on claims
(1) Each qualified employee whose claim for benefits
has been denied in whole or in part upon an initial
determination with respect thereto upon a basis other
than one which is reviewable pursuant to one of the
succeeding paragraphs of this subsection, shall be
granted an opportunity for a fair hearing thereon before
a referee or such other reviewing body as the Board may
establish or assign thereto. In any such case the Board or
the person or reviewing body so established or assigned
shall, by publication or otherwise, notify all parties
properly interested of their right to participate in the
hearing and of the time and place of the hearing.
(2) Any claimant whose claim for benefits has been
denied in an initial determination with respect thereto
upon the basis of his not being a qualified employee, and
any claimant who contends that under an initial
determination of his claim he has been awarded benefits
at less than the proper rate, may appeal to the Board for
the review of such determination. Thereupon the Board
shall review the determination and for such review may
designate one of its officers or employees to receive
evidence and to report to the Board thereon together with
recommendations. In any such case the Board or the
person so designated shall, by publication or otherwise,
notify all parties properly interested of their right to
participate in the proceeding and, if a hearing is to be held,
of the time and place of the hearing. At the request of any
party properly interested the Board shall provide for a
hearing, and may provide for a hearing on its own motion.
The Board shall prescribe regulations governing the
appeals provided for in this paragraph and for decisions
upon such appeal.
(3) Any base-year employer of a claimant whose claim

36a
for benefits has been granted in whole or in part, either in
an initial determination with respect thereto or in a
determination after a hearing pursuant to paragraph (1),
and who contends that the determination is erroneous for
a reason or reasons other than a reason that is reviewable
under paragraph (4), may appeal to the Board for review
of such determination. Despite such an appeal, the
benefits awarded shall be paid to such claimant, subject to
recovery by the Board if and to the extent found on the
appeal to have been erroneously awarded. The Board
shall take such action as is appropriate to recover the
amount of such benefits including if feasible adjustment
in subsequent payments pursuant to the first two
paragraphs of section 352(d) of this title. Upon an appeal,
the Board shall review the determination appealed from
and for such review may designate one of its officers or
employees to receive evidence and report to the Board
thereof together with recommendations. In any such case
the Board or the person so designated shall, by
publication or otherwise, notify all parties properly
interested of their right to participate in the proceeding
and, if a hearing is to be held, of the time and place of the
hearing. At the request of any party properly interested
the Board shall provide for a hearing, and may provide for
a hearing on its own motion. The Board shall prescribe
regulations governing the appeals provided for in this
paragraph and for decisions upon such appeal.
(4) In any case in which benefits are awarded to a
claimant in whole or in part upon the basis of pay earned
in the service of a person or company found by the Board
to be an employer as defined in this chapter but which
denies that it is such an employer, such benefits awarded
on such basis shall be paid to such claimant subject to a
right of recovery of such benefits. The Board shall
thereupon designate one of its officers or employees to

37a
receive evidence and to report to the Board on whether
such benefits should be repaid. The Board may also
designate one of its officers or employees to receive
evidence and report to the Board whether or not any
person or company is entitled to a refund of contributions
or should be required to pay contributions under this
chapter, regardless of whether or not any claims for
benefits will have been filed upon the basis of service in
the employ of such person or company, and shall follow
such procedure if contributions are assessed and payment
is refused or payment is made and a refund claimed upon
the basis that such person or company is or will not have
been liable for such contributions. In any such case the
Board or the person so designated shall, by publication or
otherwise, notify all parties properly interested of their
right to participate in the proceeding and, if a hearing is
to be held, of the time and place of the hearing. At the
request of any party properly interested the Board shall
provide for a hearing, and may provide for a hearing on
its own motion. The Board shall prescribe regulations
governing the proceedings provided for in this paragraph
and for decisions upon such proceedings.
(5) Final decision of the Board in the cases provided
for in the preceding three paragraphs shall be
communicated to the claimant and to the other interested
parties within fifteen days after it is made. Any properly
interested party notified, as hereinabove provided, of his
right to participate in the proceedings may obtain a
review of any such decision by which he claims to be
aggrieved or the determination of any issue therein in the
manner provided in subsection (f) of this section with
respect to the review of the Board’s decisions upon claims
for benefits and subject to all provisions of law applicable
to the review of such decisions. Subject only to such
review, the decision of the Board upon all issues

38a
determined in such decision shall be final and conclusive
for all purposes and shall conclusively establish all rights
and obligations, arising under this chapter, of every party
notified as hereinabove provided of his right to participate
in the proceedings.
(6) For purposes of this subsection and subsections
(d) and (f), any base-year employer of the claimant is a
properly interested party.
(7)
Any issue determinable pursuant to this
subsection and subsection (f) of this section shall not be
determined in any manner other than pursuant to this
subsection and subsection (f).
(d) Decisions of reviewing bodies; review and
finality
The Board shall prescribe regulations governing the
filing of cases with and the decision of cases by reviewing
bodies, and the review of such decisions. The Board may
provide for intermediate reviews of such decisions by such
bodies as the Board may establish or assign thereto. The
Board may (i) on its own motion review a decision of an
intermediate reviewing body on the basis of the evidence
previously submitted in such case, and may direct the
taking of additional evidence, or (ii) permit such parties as
it finds properly interested in the proceedings to take
appeals to the Board. Unless a review or an appeal is had
pursuant to this subsection, the decision of an
intermediate reviewing body shall, subject to such
regulations as the Board may prescribe, be deemed to be
the final decision of the Board.
(e) Application of rules of evidence in law and
equity; notice of findings
In any proceeding other than a court proceeding, the

39a
rules of evidence prevailing in courts of law or equity shall
not be controlling, but a full and complete record shall be
kept of all proceedings and testimony, and the Board’s
final determination, together with its findings of fact and
conclusions of law in connection therewith, shall be
communicated to the parties within fifteen days after the
date of such final determination.
(f) Review of final decision of Board by Courts of
Appeals; costs
Any claimant, or any railway labor organization
organized in accordance with the provisions of the
Railway Labor Act [45 U.S.C. 151 et seq.], of which
claimant is a member, or any base-year employer of the
claimant, or any other party aggrieved by a final decision
under subsection (c) of this section, may, only after all
administrative remedies within the Board will have been
availed of and exhausted, obtain a review of any final
decision of the Board by filing a petition for review within
ninety days after the mailing of notice of such decision to
the claimant or other party, or within such further time as
the Board may allow, in the United States court of appeals
for the circuit in which the claimant or other party resides
or will have had his principal place of business or principal
executive office, or in the United States Court of Appeals
for the Seventh Circuit or in the United States Court of
Appeals for the District of Columbia. A copy of such
petition, together with initial process, shall forth-with be
served upon the Board or any officer designated by it for
such purpose. A copy of such petition also shall forthwith
be served upon any other properly interested party, and
such party shall be a party to the review proceeding.
Service may be made upon the Board by registered mail
addressed to the Chairman. Within thirty days after
receipt of service, or within such additional time as the

40a
court may allow, the Board shall file with the court in
which such petition has been filed the record upon which
the findings and decision complained of are based, as
provided in section 2112 of title 28. Upon the filing of such
petition the court shall have exclusive jurisdiction of the
proceeding and of the question determined therein. It
shall have power to enter a decree affirming, modifying,
or reversing the decision of the Board, with or without
remanding the cause for rehearing. The findings of the
Board as to the facts, if supported by evidence and in the
absence of fraud, shall be conclusive. No additional
evidence shall be received by the court but the court may
order additional evidence to be taken before the Board,
and the Board may, after hearing such additional
evidence, modify its findings of fact and conclusions and
file such additional or modified findings and conclusions
with the court, and the Board shall file with the court the
additional record. The judgment and decree of the court
shall be final, subject to review as in equity cases.
An applicant for review of a final decision of the Board
concerning a claim for benefits shall not be liable for costs,
including costs of serv­ice, or costs of printing records,
except that costs may be assessed by the court against
such applicant if the court determines that the
proceedings for such review have been instituted or
continued without reasonable ground.
(g) Finality of Board decisions
Findings of fact and conclusions of law of the Board in
the determination of any claim for benefits or refund, the
determination of any other matter pursuant to subsection
(c) of this section, and the determination of the Board that
the unexpended funds in the account are available for the
payment of any claim for benefits or refund under this
chapter, shall be, except as provided in subsection (f) of

41a
this section, binding and conclusive for all purposes and
upon all persons, including the Comptroller General and
any other administrative or accounting officer, employee,
or agent of the United States, and shall not be subject to
review in any manner other than that set forth in
subsection (f) of this section.
(h)
Board

Benefits payable prior to final decision of

Except as may be otherwise prescribed by regulations
of the Board, benefits payable with respect to any period
prior to the date of a final decision of the Board with
respect to a claim therefor, shall be paid only after such
final decision.
(i) Fees for presenting claims; penalties
No claimant or other properly interested person
claiming benefits shall be charged fees of any kind by the
Board, its employees or representatives, with respect to
such claim. Any such claimant or other properly
interested person may be represented by counsel or other
duly authorized agent, in any proceeding before the Board
or its representatives or a court, but no such counsel or
agent for a claimant shall either charge or receive for such
services more than an amount approved by the Board or
by the court before whom the proceedings of the Board
are reviewed. Any person who violates any provision of
this subsection shall be punished by a fine of not more
than $10,000 or by imprisonment not exceeding one year.

